Ti

C@QCKLE

2311 Douglas Street Le ga l Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
WADITH STOCKINGER NADER
and STACEY NICHOLE NADER,
Petitioners,

vs.

THE CITY OF PAPILLION; SARPY COUNTY;
BRYAN SVAJGL; BENJAMIN IVERSEN;
SCOTT A. LYONS; L. KENNETH POLIKOV;
and JENNIFER MIRALLES,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 15th day of July, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
CHRISTOPHER J. TJADEN
11422 Miracle Hills Dr., Suite 400
Omaha, NE 68154
Telephone: (402) 397-0800
E-Mail: ctjaden@evans-dixon.com

Attorney for Petitioners

Subscribed and sworn to before me this 15th day of July, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

oe i 6 Cllite Qudiw-h. Chk

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38367
Attorneys for City of Papillion, Bryan Svajgl, Scott A. Lyons, Benjamin Iversen:

Ryan M. Kunhart

Jeffrey J. Blumel

8712 West Dodge Road #300
Omaha, NE 68114
402-933-3079
rkunhart@akclaw.com
jblumel@akclaw.com

Attorney for Sarpy County, Kenneth Polikov, Jennifer Miralles:

Vincent Valentino

130 South 13th Street #300
Lincoln, NE 68508
402-742-9240
vince@nrmainc.info
